      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                         Washington, D.C. 20201




August 12, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Nationwide Rollup Report for Medicaid Drug Rebate Collections
               (A-06-10-00011)


The attached final report provides the results of our rollup review of Medicaid drug rebate
collections.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov. We look
forward to receiving your final management decision within 6 months. Please refer to report
number A-06-10-00011 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 NATIONWIDE ROLLUP REPORT
 FOR MEDICAID DRUG REBATE
       COLLECTIONS




                    Daniel R. Levinson
                     Inspector General

                       August 2011
                      A-06-10-00011
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Depa-rtment of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Medicaid drug rebate program (the program) became effective in 1991 (section 1927 of the
Social Security Act (the Act)). For a covered outpatient drug to be eligible for Federal Medicaid
funding under the program, the drug’s manufacturer must enter into a rebate agreement with the
Centers for Medicare & Medicaid Services (CMS) and pay quarterly rebates to the States. CMS,
the States, and drug manufacturers each have specific functions under the program. The Deficit
Reduction Act of 2005 (DRA) amended section 1927 of the Act and requires States, as of
January 1, 2006, to collect rebates for single-source drugs administered by physicians.

In 2005, we issued a report on the results of audits of the programs in 49 States and the District
of Columbia (A-06-03-00048). Those audits found that four States had no weaknesses in
accountability for and internal controls over their programs. The remaining 45 States and the
District of Columbia lacked sufficient controls in (1) Medicaid Drug Rebate Schedule
(Form CMS 64.9R) reporting, (2) interest accrual and collection, (3) rebate collection systems,
and (4) dispute resolution and had other significant weaknesses.

We concluded that States lacked adequate assurance that they had properly recorded and
collected all of the drug rebates due them. Additionally, CMS did not have reliable drug rebate
billing and collection information from the States to properly monitor the drug rebate program.
We recommended that CMS reemphasize the requirement that States submit accurate and
reliable information on Form CMS 64.9R and emphasize to States their need to place a priority
on billing and collecting drug rebates. CMS agreed with our recommendations.

OBJECTIVES

Our objectives were to determine whether States had (1) implemented recommendations made in
previous audits of the programs and (2) established controls over collecting rebates on single-
source drugs administered by physicians.

SUMMARY OF FINDINGS

Fourteen States and the District of Columbia implemented the recommendations from our
previous audits. Twenty-seven of the remaining 31 States with previous audit recommendations
implemented at least 1 recommendation, and 4 States did not fully implement any of the
recommendations. We identified new weaknesses in four States. The weaknesses in the 31
States fell into the following categories:

    •   unreliable information submitted to CMS on Form CMS 64.9R (22 States),

    •   improper accounting for interest on late rebate payments (13 States),

    •   an inadequate rebate collection system (10 States),


                                                 i
    •   an inadequate dispute resolution and collection process (6 States), and

    •   other significant weaknesses (8 States).

Forty-two States established controls over collecting rebates for single-source drugs administered
by physicians as required by the DRA. The remaining six States and the District of Columbia
did not establish such controls. (See Appendix B for a summary of weaknesses by State.)

States lacked adequate assurance that all drug rebates due them were properly recorded and/or
collected. Additionally, CMS did not have reliable drug rebate billing and collection information
to properly monitor the program.

RECOMMENDATIONS

We recommend that CMS:

   •    continue to emphasize the requirement that States submit accurate and reliable
        information on Form CMS 64.9R,

   •    continue to emphasize to States the need to place a priority on billing and collecting drug
        rebates, and

   •    emphasize that States are required to collect rebates for single-source drugs administered
        by physicians.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

CMS agreed with our recommendations and stated that it would emphasize the importance of
submitting accurate and reliable information, as well as the proper collection of rebates. CMS
also stated that it would remind States of the requirement to bill and collect rebates on single-
source drugs administered by physicians. CMS’s comments are included in their entirety as
Appendix C.




                                                   ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Drug Rebate Program ..........................................................................................1
              Physician-Administered Drugs ...........................................................................1
              Prior Office of Inspector General Reports ...........................................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY .........................................................3
               Objectives ............................................................................................................3
               Scope ....................................................................................................................3
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          FEDERAL REQUIREMENTS ........................................................................................4

          IMPLEMENTATION OF PRIOR RECOMMENDATIONS .........................................5
               Unreliable Information Submitted on Form CMS 64.9R ....................................5
               Improper Accounting for Interest on Late Rebate Payments...............................5
               Inadequate Rebate Collection System .................................................................5
               Inadequate Dispute Resolution and Collection Processes ...................................6
               Other Significant Weaknesses .............................................................................6

          PHYSICIAN-ADMINISTERED SINGLE-SOURCE DRUGS ......................................7

          CONCLUSIONS..............................................................................................................7

          RECOMMENDATIONS .................................................................................................7

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ....................7

APPENDIXES

          A: STATE REPORTS

          B: SIGNIFICANT PRIOR AND CURRENT WEAKNESSES BY STATE

          C: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although States have considerable flexibility in designing and operating their Medicaid
programs, they must comply with applicable Federal requirements.

Drug Rebate Program

The Medicaid drug rebate program (the program) became effective in 1991 (section 1927 of the
Act). For a covered outpatient drug to be eligible for Federal Medicaid funding under the
program, the manufacturer must enter into a rebate agreement with CMS and pay quarterly
rebates to the States. CMS, the States, and manufacturers each have specific functions under the
program.

Pursuant to section 1927(b) of the Act and section II of the rebate agreement, manufacturers are
required to submit a list to CMS of all covered outpatient drugs (drugs) and to report each drug’s
average manufacturer price and, where applicable, best price. Based on this information, CMS
calculates a unit rebate amount for each drug and provides the amounts to States quarterly.

Section 1927(b)(2)(A) of the Act requires States to maintain drug utilization data that identifies,
by National Drug Code (NDC), the number of units of each drug for which the States reimbursed
providers. The number of units is multiplied by the unit rebate amount to determine the actual
rebate amount due from each manufacturer. Section 1927(b)(2) of the Act requires States to
provide the drug utilization data to CMS and the manufacturer. States also report drug rebate
accounts-receivable data on the Medicaid Drug Rebate Schedule (Form CMS-64.9R). This is part
of Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program, which contains a summary of actual Medicaid expenditures for each quarter and is
used by CMS to reimburse States for the Federal share of Medicaid expenditures.

Section (V)(c) of the rebate agreement requires manufacturers and States to do their best to
resolve utilization discrepancies within 60 days after the State receives notice of a discrepancy.
CMS developed the Dispute Resolution Program to help States and manufacturers resolve
disputes.

Physician-Administered Drugs

Section 6002(a) of the Deficit Reduction Act of 2005 (DRA) amended section 1927 of the Act
and requires States, as of January 1, 2006, to collect and submit utilization data for single-source




                                                 1
drugs administered by physicians so that States may obtain rebates for the drugs. 1 Single-source
drugs are commonly referred to as “brand-name” drugs and do not have generic equivalents.

In 38 States, physician-administered drugs are billed to the State Medicaid program on a claim
form using procedure codes that are part of the Healthcare Common Procedure Coding System.
The NDC is not included on the physician claim form. The procedure code identifies a drug by
its active ingredient(s) and identifies the number of drug units (i.e., billing units) allowed per
reimbursement for that procedure code. Because rebates are calculated and paid based on NDCs,
each procedure code must be converted to an NDC. Additionally, the billing units for a
procedure code may differ from the units used for rebate purposes (e.g., grams versus liters).

Prior Office of Inspector General Reports

In 2005, we issued a report on the results of audits of the programs in 49 States and the District
of Columbia. 2 Those audits found that four States had no weaknesses in accountability for and
internal controls over their programs. In the remaining 45 States and the District of Columbia,
we identified:

    •   unreliable information submitted to CMS on Form CMS 64.9R (37 States),

    •   improper accounting for interest on late rebate payments (27 States),

    •   an inadequate rebate collection system (17 States),

    •   an inadequate dispute resolution and collection process (15 States), and

    •   other significant weaknesses (13 States).

Additionally, CMS did not have reliable drug rebate billing and collection information from the
States to properly monitor the program. As a result of the weaknesses, States lacked adequate
assurance that all of the drug rebates due them were properly recorded and collected.

We recommended that CMS reemphasize the requirement that States submit accurate and
reliable information on Form CMS 64.9R and emphasize to States their need to place a priority
on billing and collecting drug rebates. CMS agreed with our recommendations.

After our report to CMS, we conducted 49 audits. (For a list, see Appendix A.) We summarize
the results of those audits in this report.




1
 This provision of the DRA expanded the requirement to certain multiple-source drugs administered by physicians
after January 1, 2008.
2
 Multistate Review of Medicaid Drug Rebate Programs (A-06-03-00048), issued July 6, 2005; Arizona did not
operate a program.

                                                       2
OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether States had (1) implemented recommendations that we
made in previous audits of the programs and (2) established controls over collecting rebates on
single-source drugs administered by physicians.

Scope

We performed audit work in 48 States and the District of Columbia. We did not perform reviews
in Arizona or Maryland. Arizona does not have a program. In Maryland, our prior review
identified no weaknesses in accountability and internal controls. We limited our reviews in
Illinois, Minnesota, and North Carolina to the controls over collecting rebates on single-source
drugs administered by physicians because there were no previous audit recommendations on
which to follow up.

Cumulatively, the 48 States and the District of Columbia reported to CMS at least $9.5 billion in
billings and $11.0 billion in collections during the 1-year period ended June 30, 2006. 3

Methodology

To accomplish our objectives, we

       •   reviewed section 1927 of the Act, the rebate agreement, section 6002(a) of the DRA,
           CMS guidance issued to State Medicaid directors, and other information pertaining to the
           program;

       •   reviewed the States’ policies and procedures related to their drug rebate accounts
           receivable systems;

       •   interviewed State officials and/or fiscal agents to identify the policies, procedures, and
           controls that related to the program;

       •   reviewed a copy of each State’s Form CMS-64.9R; and

       •   reviewed States’ policies and procedures and interviewed State officials and/or fiscal
           agents to determine the process used to convert physician services claims data into drug
           rebate data related to single-source drugs administered by physicians.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


3
    Billing and collection information was not available from all States.

                                                             3
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                              FINDINGS AND RECOMMENDATIONS

Fourteen States and the District of Columbia implemented the recommendations from our
previous audits. Twenty-seven of the remaining 31 States with previous audit recommendations
implemented at least 1 recommendation, and 4 States 4 did not fully implement any of the
recommendations. We identified new weaknesses in four States. The weaknesses in the 31
States fell into the following categories:

    •    unreliable information submitted to CMS on Form CMS 64.9R (22 States),

    •    improper accounting for interest on late rebate payments (13 States),

    •    an inadequate rebate collection system (10 States),

    •    an inadequate dispute resolution and collection process (6 States), and

    •    other significant weaknesses (8 States).

Forty-two States established controls over collecting rebates for single-source drugs administered
by physicians, as required by the DRA. The remaining six States and the District of Columbia
did not. (See Appendix B for a summary of significant weaknesses by State.)

As a result of these weaknesses, States lacked adequate assurance that all drug rebates due them
were properly recorded and collected. Additionally, CMS did not have reliable information to
properly monitor the program.

FEDERAL REQUIREMENTS

Federal regulations (42 CFR § 433.32(a)) require States to “maintain an accounting system and
supporting fiscal records to assure that claims for Federal funds are in accordance with
applicable Federal requirements.”

Section 2500.6 of the CMS State Medicaid Manual instructs States to present a complete,
accurate, and full disclosure of all drug rebates and collections.

Section 6002(a) of the DRA amends section 1927 of the Act and requires States, as of January 1,
2006, to collect and submit utilization data for single-source drugs administered by physicians so
that States may obtain rebates for the drugs.




4
  Five of the twenty-seven States implemented recommendations related to minor findings that were included in
their individual program reports but not included in our summary report (A-06-03-00048) issued in 2005.

                                                        4
IMPLEMENTATION OF PRIOR RECOMMENDATIONS

Unreliable Information Submitted on Form CMS-64.9R

In our prior audits of State programs, we determined that 37 States reported unreliable
information on Form CMS 64.9R. Sixteen States have since implemented our recommendations
on Form CMS 64.9R reporting, but 21 have not. Additionally, we identified control weaknesses
in a State that did not previously have a weakness.

We were unable to rely on the drug rebate information reported on the Form CMS 64.9R because
the States:

      •   did not reconcile the Form CMS 64.9R to supporting records (13 States),

      •   did not report accurate information on Form CMS 64.9R (7 States),

      •   did not maintain supporting records (3 States), and

      •   did not properly complete all parts of the Form CMS 64.9R (7 States). 5

Without accurate information on Form CMS 64.9R, CMS cannot provide adequate oversight of
drug rebate collections.

Improper Accounting for Interest on Late Rebate Payments

In our prior audits, we determined that 27 States either did not verify that interest payments for
late rebate payments were accurate or did not properly accrue, bill, and/or track the interest due.
Fifteen States have since implemented our recommendations on verifying and tracking interest,
but 12 States have not. Additionally, we identified a control weakness in a State that did not
previously have a reported weakness. As a result, these States did not have adequate assurance
that all interest on late, unpaid, or disputed rebates was properly calculated, collected, and
reported.

Inadequate Rebate Collection System

In our prior audits, we determined that 17 States had weaknesses in their rebate collection
systems that resulted in inaccurate or insufficiently detailed rebate collection information. Since
our prior audits, eight States have implemented our recommendations to address weaknesses in
their rebate collection systems, but nine have not. Additionally, we identified weaknesses in the
rebate collection system of one State that did not previously have any. Of these 10 States:




5
    Some States had more than one CMS 64.9R weakness.

                                                        5
    •    4 did not track drug rebate activity at a sufficiently detailed level,

    •    4 did not update accounts receivable data before converting to a new rebate collection
         system or fiscal agent, and

    •    2 did not maintain a rebate general ledger control account.

As a result, these States could not be assured that all drug rebate revenue was collected.

Inadequate Dispute Resolution and Collection Processes

In our prior audits, we determined that 15 States did not have adequate rebate dispute resolution
policies and procedures and/or adequate staff to resolve disputes. Eleven States have since
implemented our recommendations on their dispute resolution processes, but four have not.
Additionally, we identified weaknesses in the dispute resolution processes in two States that did
not previously have any. Of these six States, three did not have adequate policies and procedures
to resolve disputes, two did not have adequate staff, and one had unresolved disputes that were
more than 3 years old. As a result, these States did not resolve disputes in a timely manner.
Weaknesses in dispute resolution may also lead to a loss of rebate revenue.

Other Significant Weaknesses

In our prior audits, other significant weaknesses included inadequate procedures to track $0 unit
rebate amounts, 6 improper writeoffs and adjustments, and inadequate segregation of duties.

Six States had inadequate procedures to track $0 unit rebate amounts. Two States have since
implemented our recommendations related to $0 unit rebate amounts, but four have not. CMS
instructs States to invoice these units and have the manufacturer pay the rebate based on the
manufacturer’s calculated unit rebate amount. However, these four States generally did not have
procedures in place to track whether $0 unit rebate amounts were ever paid. As a result, there
was no assurance that these States collected all rebate revenue due from manufacturers.

In our prior audits, we determined that six States improperly made writeoffs of drug rebates.
Two States have since implemented our recommendations on writeoffs and adjustments, but four
have not. Two of the States did not provide adequate management oversight of account
adjustments and writeoffs. One State could not determine the amount of rebate writeoffs that
occurred during the transition to a new contractor, and one State’s policies for writeoff
adjustments did not conform to CMS guidelines. As a result, States may have written off
additional drug rebates that should have been collected through the dispute resolution process.

In our prior audits, we determined that six States did not have a proper segregation of duties for
billing and collection of drug rebates. Five States have since implemented our recommendations
on segregation of duties, but one has not. That State did not develop written policies and

6
  The phrase “$0 unit rebate amounts” refers to drugs that do not have a unit rebate amount included in the drug data
that CMS reports quarterly to the States. CMS data may contain a $0 unit rebate amount if the pricing information
is not provided in a timely manner or has a 50-percent variance from the previous quarter.

                                                          6
procedures that segregated duties for depositing and recording drug rebate receipts. As a result,
the State still had an increased risk of fraud, waste, and abuse in drug rebate funds.

PHYSICIAN-ADMINISTERED SINGLE-SOURCE DRUGS

Forty-two States established controls over collecting rebates for single-source drugs administered
by physicians, as required by the DRA. The remaining six States and the District of Columbia
have not established such controls.

CONCLUSIONS

Thirty-seven States made improvements since our 2005 review. However, many States still need
to make improvements. The corrective actions we recommended in each of the State reports
may result in States’ properly monitoring their drug rebate programs. This monitoring may help
increase drug rebate revenue and enable more reliable reporting of drug rebate information to
CMS. Until the information reported on Form CMS 64.9R is accurate, CMS will not be able to
provide adequate oversight.

RECOMMENDATIONS

We recommend that CMS:

   •   continue to emphasize the requirement that States submit accurate and reliable
       information on Form CMS 64.9R,

   •   continue to emphasize to States the need to place a priority on billing and collecting drug
       rebates, and

   •   emphasize that States are required to collect rebates for single-source drugs administered
       by physicians.

CENTERS FOR MEDICARE & MEDICAID COMMENTS

CMS agreed with our recommendations and stated that it would emphasize the importance of
submitting accurate and reliable information, as well as the proper collection of rebates. CMS
also stated that it would remind States of the requirement to bill and collect rebates on single-
source drugs administered by physicians. CMS’s comments are included in their entirety as
Appendix C.




                                                 7
APPENDIXES
                                  APPENDIX A: STATE REPORTS
                        State                        Report Number                        Issue Date
        Alabama                                      A-04-07-07024                        8/21/2008
        Alaska                                       A-09-08-00051                        1/22/2009
        Arkansas                                     A-06-07-00015                        11/27/2007
        California                                   A-09-07-00084                        2/27/2008
        Colorado                                     A-07-08-03108                        8/25/2008
        Connecticut                                  A-01-08-00002                        6/12/2008
        Delaware                                     A-03-07-00217                        7/24/2008
        District of Columbia                         A-03-07-00216                         1/4/2008
        Florida                                      A-04-07-07022                        4/11/2008
        Georgia                                      A-04-07-07027                         7/31/2009
        Hawaii                                       A-09-07-00081                        4/14/2008
        Idaho                                        A-09-07-00064                        4/15/2008
        Illinois                                     A-05-08-00011                        7/29/2008
        Indiana                                      A-04-08-07006                        10/29/2009
        Iowa                                         A-07-07-03094                         4/3/2008
        Kansas                                       A-07-08-03102                        12/19/2007
        Kentucky                                     A-05-08-00015                        3/31/2008
        Louisiana                                    A-06-07-00067                        11/27/2007
        Maine                                        A-01-09-00001                        12/21/2009
        Massachusetts 1                              A-01-08-00005                        10/20/2008
        Michigan                                     A-05-08-00014                         7/8/2008
        Minnesota                                    A-05-08-00010                        4/14/2008
        Mississippi                                  A-04-07-07023                         10/9/2008
        Missouri                                     A-07-07-03096                         2/7/2008
        Montana                                      A-07-07-03101                         6/6/2008
        Nebraska                                     A-07-07-03097                        4/10/2008
        Nevada                                       A-09-08-00026                        10/1/2008
        New Hampshire                                A-01-08-00013                        8/25/2009
        New Jersey                                   A-02-07-01056                        6/12/2008
        New Mexico                                   A-06-07-00071                        5/20/2008
        New York                                     A-02-07-01055                         9/8/2008
        North Carolina                               A-04-07-07028                        6/18/2008
        North Dakota                                 A-07-08-03105                        4/15/2008
        Ohio                                         A-04-08-07005                        2/24/2009
        Oklahoma                                     A-06-07-00069                         2/4/2008
        Oregon                                       A-09-07-00052                         3/14/2008
        Pennsylvania                                 A-03-08-00201                        2/27/2008
        Rhode Island                                 A-01-08-00009                        3/24/2009
        South Carolina                               A-04-08-07004                        7/31/2009
        South Dakota                                 A-07-08-03110                        8/13/2008
        Tennessee                                    A-04-07-07026                         5/1/2008
        Texas                                        A-06-08-00028                         8/6/2008
        Utah                                         A-07-07-03098                         7/1/2008
        Vermont                                      A-01-08-00004                         8/13/2008
        Virginia                                     A-03-07-00218                        1/31/2008
        Washington                                   A-09-07-00062                         4/4/2008
        West Virginia                                A-03-08-00200                        10/6/2008
        Wisconsin                                    A-05-08-00012                        3/24/2008
        Wyoming                                      A-07-08-03106                        5/27/2008


Note: These reports are available at http://oig.hhs.gov.




1
 We relied on the State’s Independent State Auditor’s Report on the Administration by MassHealth of the Medicaid
Drug Rebate Program June 30, 2006 to address the first objective in our report. It is available online at
www.mass.gov. Accessed on October 1, 2010.
          APPENDIX B: SIGNIFICANT PRIOR AND CURRENT WEAKNESSES BY STATE
          Column 1 = Unreliable information submitted on CMS (Centers for Medicare & Medicaid Services) Form 64.9R
          Column 2 = Improper accounting for interest on late rebate payments
          Column 3 = Inadequate rebate collection system
          Column 4 = Inadequate dispute resolution and collection process
          Column 5 = Inadequate tracking of $0 unit rebate amounts
          Column 6 = Inadequate controls over writeoffs and adjustments                                    P = Prior weaknesses
          Column 7 = Improper segregation of duties
                                                                                                           C = Current weaknesses
          Column 8 = Inadequate or missing controls over single-source drugs administered by physicians

                         1                 2                 3                 4                 5                 6                    7       8
       State        P        C        P        C        P        C        P        C         P       C         P       C        P           C   C
Alabama                               X                                   X
Alaska              X        X        X        X        X        X                                                              X
Arkansas            X                 X        X
California          X        X                          X                 X
Colorado            X        X                                                     X        X                 X
Connecticut         X        X
Delaware            X        X
District of
                    X                                                                                                                           X
Columbia
Florida             X                 X                                   X
Georgia             X                                                                                         X        X
Hawaii              X        X        X        X        X        X        X                                                                     X
Idaho               X        X                          X                 X                                   X        X        X
Illinois                                                                                                                                        X
Indiana             X        X
Iowa                X        X        X                 X
Kansas              X                 X                 X
Kentucky            X
Louisiana           X
Maine               X        X        X        X                          X        X
Massachusetts       X        X        X
Michigan            X        X
Minnesota
Mississippi                           X                                                                                                         X
Missouri            X        X        X
Montana             X                                   X        X        X        X        X        X
Nebraska            X        X        X        X        X                                                                                       X
Nevada                                X        X        X        X        X
New Hampshire       X                 X
New Jersey          X        X        X        X
New Mexico          X        X        X                 X        X        X                                                     X           X
New York            X        X        X                 X        X        X
North Carolina
North Dakota                                   X                                   X        X        X
Ohio                                  X
Oklahoma            X                                   X
Oregon              X        X        X        X        X        X                                                              X
Pennsylvania        X                 X                 X                 X
Rhode Island        X                                                     X
South Carolina      X                 X        X
South Dakota        X        X        X                                                     X        X        X        X
Tennessee           X
Texas                                 X                 X                 X                                   X                 X
Utah                X        X        X        X        X        X                          X        X                                          X
Vermont                      X        X        X
Virginia                                                         X
Washington                            X        X                          X        X                          X        X        X
West Virginia       X                                                     X        X
Wisconsin           X                 X
Wyoming             X        X                          X        X                          X                                                   X
   TOTALS           37       22       27       13       17       10       15        6        6        4        6        4           6       1   7
APPENDIX C: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 



  /"''''-o''Ic,
  ( tB                DEPARTMENT OF HEALTH &: HUMAN SERVICES
  ,~                                                                                            Chpury Ad millis tra to r
                                                                                                Ba/Iimo... MD 21244·1850




              DAT E:              ~AY   1 1 1011
              TO: 	              Daniel R Levinson
                                 In~IOrGe~
                  FROM:   ~lcnncr 

                                 p~~puty Administrator 

              SUBJECT: 	 Office of Inspector General (DIG) Draft. Report: "Nationwide Roll up Report for
                                 Medicaid Drug Rebate Collections" (A-06-1 0-000 II)


                  Thank you for the opportunity to review and comment on the above-refe renced report. Tn 2005,
                  the DIG issued a report on the results of aud its of the Medicaid drug rebate programs in 49 States
                  and the District of Columbia. Those audits (oWld that four States had no weaknesses in
                  accountability for and internal controls over the ir programs. In this report, the DIG objectives
                  were \0 detennine whether Stales had implemented recommendations made in previous audits of
                  the programs and established controls over collecting rehates on single-source drugs
                  admin istered by physicians.

                  The 010 found that 14 States and the District of Columbia implemented the recommendations
                  from the OIO's previous audi ts and that 27 of the remaining 31 States wi th previous audit
                  recommendations implemented at least I recommendation. Four States di d not full y implement
                  any of the rCi.:ommendations. Further, the 010 identified new weaknesses in four Slates. The
                  weaknesses in the 31 States fell into the following categories:

                      • 	 unreliable information submitted to the Centers for Med icare & Medicaid Services
                          (CMS) on Form CMS 64.9R (22 States);
                      • 	 improper accounting for interest on late rebate payments ( 13 States);
                      • 	 an inadequate rebate collection system (10 States);
                      • an inadequate dispute resolution and collection process (6 States); and
                      • other significant weaknesses (8 States).
Page 2- Daniel R. Levinson

Forty two States established controls over collet:ting rebates for single-source drugs administered
by physic ians as required by the Deficil Reduction ACI. The remaining six States and the
District of Columbia did not establish such controls. States lacked adequate assurance that all
drug rebates due them were properly recorded and/or collet:ted. Additionally. eMS did not have
reliable drug rebate billing and collection information 0 properly monitor the program.

ole Recommendation
CMS shou ld:

   • 	 continue to emphasize the requirement that States submit acCW1lte and reliable 

       information on Form eMS 64.9Rj 


    • 	 continue to emphasize to States the need to p lace a priority on billing and collecting drug
        rebates; and,

    • 	 emphasize that States are required to collect rebates for single-source dru gs administered
        by physicians.

e MS RHDOn!t

We concur. While we are pleased with the progress that the States have made since the previous
010 report. we will again emphasize lhe importance of subm ission of accurate and rel iable
info rmation as "'CII as the proper collection o frebates. eMS has provided States with access 10
Drug Data Reporting for Medicaid System. SO that they can more acc:unuely and timely track
changes 10 manufactw'cr rebate billing. Also. eMS has continued 10 notify States of tile deletion
o f manufacturer-reported products that do not meet the definition of covered outpatient drugs.
CMS will issue guidance to States via releases to remind them of their requirement \0 bill and
collect rebates for single-source physician-administered drugs.

The e MS would again like to thank the 010 for their eITons in reviewing the compliance of
States' partici pation in the Medicaid Drug Rebate Program for the reimbW'.!ement ofdrug
expenditures.
